LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

May 20, 2021

Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002

RE 20-925: SEBHAT AFEWORK, M.D. V. VELANTA MONIQUE BABBITT, ET AL.
Dear Sir or Madam:
I hereby certify that at the request of counsel for the Petitioner, on May 20,
2021, I caused service to be made pursuant to Rule 29 on the following counsel for the
Respondents:
RESPONDENT VELANTA BABBITT:
Elliott N. Tiomkin
Law Offices of Elliott N. Tiomkin
16133 Ventura Boulevard
Encino, CA 91436
310-774-1437
etiomkin@gmail.com
RESPONDENT DIGNITY HEALTH:
Hilliary Brekke Powell
Packer O'Leary and Corson
505 North Brand Boulevard
Suite 1025
Glendale, CA 91203
818-796-4156
hpowell@poc-law.com

RESPONDENT UNITED STATES:
The Honorable Elizabeth Prelogar
Acting Solicitor General
United States Department of Justice
Room 5614
950 Pennsylvania Ave. NW
Washington, DC 20530-0001
202-514-2217
supremectbriefs@usdoj.gov

This service was effected by depositing three copies of a Supplemental Brief to
the Petition for Writ of Certiorari in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting digital copies via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 20th day of May 2021.

